No. 19-618
IN THE SUPREME COURT OF THE UNITED STATES
__________
JON ERIC SHAFFER,
Petitioner
v.
PENNSYLVANIA
Respondent
___________
On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania
___________
APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A RESPONSE TO PETITION FOR WRIT OF CERTIORARI
___________
JOSH SHAPIRO
Attorney General
Commonwealth of Pennsylvania
JENNIFER SELBER
Executive Deputy Attorney General
Director, Criminal Law Division
JAMES BARKER
Chief Deputy Attorney General
Appeals and Legal Services Section
WILLIAM R. STOYCOS*
Senior Deputy Attorney General
Appeals & Legal Services Section
*Counsel of Record
PA Office of Attorney General
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Phone: 717-787-1401
Fax: 717-783-5431
EMAIL: wstoycos@attorneygeneral.gov

DATE: December 11, 2019

To the Honorable Samuel A. Alito, Jr., Associate Justice of the Supreme
Court of the United States and Circuit Justice for the Third Circuit:
Pursuant to Rule 13.5 of the Supreme Court of the United States, the
Commonwealth of Pennsylvania (“the Commonwealth”) hereby respectfully files
this application for a 30-day extension of time within which to file its response to
the petition for writ of certiorari filed by Petitioner Jon Eric Shaffer seeking review
of the Judgment of the Supreme Court of Pennsylvania in this matter, establishing
a new filing deadline of January 15, 2019. In support thereof, the Commonwealth
avers the following:
1.

On June 18, 2019, the Supreme Court of Pennsylvania (“the state

supreme court”) filed its decision in Commonwealth v. Shaffer, 209 A.3d 957 (Pa.
2019), which contained a majority opinion, a concurring and dissenting opinion, and
a dissenting opinion.1
2.

Following the Court’s grant of two applications to extend the time for

filing a petition for writ of certiorari, Petitioner Shaffer filed a petition for writ of
certiorari on November 13, 2019.
3.

That petition seeks this Court’s review of the state supreme court’s

application of the private search exception to the Fourth Amendment of the United
States Constitution in the context of digital devices.
4.

This Court has jurisdiction to review the state supreme court’s

judgment pursuant to 28 U.S.C. § 1257(a).
A copy of the state supreme court opinions is contained within the Appendix of
Petitioner Shaffer’s petition for writ of certiorari filed on November 13, 2019.
1

2

5.

The Commonwealth’s response to the petition for writ of certiorari

(“the Commonwealth’s response”) is currently due to be filed on or before December
16, 2019.
6.

Undersigned counsel is the lead attorney for the Commonwealth in

this matter.
7.

Although

undersigned counsel

has

begun preparation of the

Commonwealth’s response, he requires additional time beyond December 16, 2019.
8.

This is primarily due to the fact that during the past 90 days,

undersigned counsel has experienced several medical conditions requiring the care
of physicians that has required him to be out of the office and on medical leave for
significant periods of time.2
9.

In addition, undersigned counsel has experienced two deaths in his

family during the past 30 days which required him to be out of the office.
10.

In addition, undersigned counsel was not involved in the trial or

appellate proceedings that took place in the Pennsylvania state courts.

The

Commonwealth was represented in those proceedings by the District Attorney of
Butler County, Pennsylvania. The case was referred from the District Attorney’s
Office to the Office of Attorney General of Pennsylvania following Petitioner
Shaffer’s decision to file a petition for writ of certiorari. Consequently, undersigned
counsel requires additional time to fully acquaint himself with the relevant record

Undersigned counsel will provide the Court with additional details if directed to do
so.
2

3

materials and to undertake the thorough research and analysis that is necessary to
properly aid this Court in determining whether to add this case to its merits docket.
11.

In addition, undersigned counsel has been required to file numerous

pleadings and briefs and present oral arguments in the state and federal courts in
unrelated cases as well as perform his role as the Office of Attorney General’s
Administrative Law Judge during the past 90 days.
12.

For these reasons, the Commonwealth respectfully requests the Court

to find good cause to extend the filing deadline for its response to the petition for
writ of certiorari by 30 days until January 15, 2019.
13.

The Commonwealth has not previously sought an extension of time

from this Court in this matter.
14.

Undersigned counsel certifies that the instant application is being filed

in good faith and for no improper purpose.
WHEREFORE, the Commonwealth of Pennsylvania hereby respectfully
requests this Honorable Court to grant a 30-day extension of time within which to
file its response to the petition for writ of certiorari filed by Petitioner Jon Eric
Shaffer seeking review of the Judgment of the Supreme Court of Pennsylvania in
this matter, establishing a new filing deadline of January 15, 2019.

4

Respectfully submitted,
JOSH SHAPIRO
Attorney General
By:

PA Office of Attorney General
Criminal Law Division
Appeals and Legal Services Section
16th Floor, Strawberry Square
Harrisburg, PA 17120
(Phone) (717) 787-1401

/s/WILLIAM R. STOYCOS
WILLIAM R. STOYCOS
Senior Deputy Attorney General
Appeals and Legal Services Section
Attorney ID 68468

Date: December 11, 2019

5

CERTIFICATE OF SERVICE
I hereby certify that I am this day serving a copy of the foregoing
APPLICATION FOR AN EXTENSION OF TIME WITHIN
WHICH TO FILE A RESPONSE TO PETITION FOR WRIT OF CERTIORARI
upon the person(s) and in the manner indicated below:

Service by first-class mail
addressed as follows:
Amir H. Ali, Esquire
Roderick & Solange
MacArthur Justice Center
777 6th Street, NW, 11th Floor
Washington, D.C. 20001
(Phone) (202) 869-3434
amir.ali@macarthurjustice.org
(Counsel for Applicant, Jon Eric Shaffer)
/s/WILLIAM R. STOYCOS
WILLIAM R. STOYCOS
Senior Deputy Attorney General
Attorney I.D. No. 68468
(Counsel for Pennsylvania)
Office of Attorney General
Criminal Law Divisions
Appeals and Legal Services Section
16th Floor, Strawberry Square
Harrisburg, PA 17120
(Phone) (717) 787-1401
(Fax) (717) 783-5431
Date: December 11, 2019

6

